APPENDIX

UNPUBLISHED

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
____________
No. 18-4731
____________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
TONY DESHAWN MCCOY,
Defendant-Appellant.
____________
Appeal from the United States District Court
for the Western District of North Carolina, at Charlotte. Max O. Cogburn, Jr.,
District Judge.
(3:17-cr-00240-MOC-DSC-1)
Submitted: June 27, 2019

Decided: July 12, 2019

Before WILKINSON, NIEMEYER, and QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Anthony Martinez, Federal Public Defender, Ann L. Hester, Assistant Federal
Public Defender, FEDERAL DEFENDERS OF WESTERN NORTH CAROLINA,
INC., Charlotte, North Carolina, for Appellant. R. Andrew Murray, United States
Attorney, Anthony J. Enright, Assistant United States Attorney, OFFICE OF THE
UNITED STATES ATTORNEY, Charlotte, North Carolina, for Appellee.
Unpublished opinions are not binding precedent in this circuit.
PER CURIAM:

2a
Tony Deshawn McCoy pled guilty to being a felon in possession of a firearm, in
violation of 18 U.S.C. § 922(g)(1) (2012). On appeal, McCoy challenges the district
court’s order denying his motion to suppress. Finding no error, we affirm.
“When reviewing a district court’s ruling on a motion to suppress, we review
factual findings for clear error and legal determinations de novo.” United States v.
Lull, 824 F.3d 109, 114 (4th Cir. 2016) (internal quotation marks omitted). “[W]e
must construe the evidence in the light most favorable to the prevailing party and
give due weight to inferences drawn from those facts by resident judges and law
enforcement officers.” Id. at 114-15 (internal quotation marks omitted). Moreover,
“we particularly defer to a district court’s credibility determinations, for it is the
role of the district court to observe witnesses and weigh their credibility during a
pre-trial motion to suppress.” United States v. Palmer, 820 F.3d 640, 653 (4th Cir.
2016) (brackets and internal quotation marks omitted).
Under the Fourth Amendment, “[t]o justify a pat down of the driver or a
passenger during a traffic stop . . . the police must harbor reasonable suspicion that
the person subjected to the frisk is armed and dangerous.” Arizona v. Johnson, 555
U.S. 323, 327 (2009). The reasonable suspicion standard requires an objective
inquiry into “whether a reasonably prudent man in the circumstances would be
warranted in the belief that his safety or that of others was in danger.” United
States v. George, 732 F.3d 296, 299 (4th Cir. 2013) (internal quotation marks
omitted). We measure reasonable suspicion against the totality of the circumstances
and “will not find reasonable suspicion lacking based merely on a piecemeal
refutation of each individual fact and inference.” Id. at 299-300 (internal quotation
marks omitted).
[I]n connection with a lawful traffic stop of an automobile, when the
officer has a reasonable suspicion that illegal drugs are in the vehicle, the
officer may, in the absence of factors allaying his safety concerns, order the
occupants out of the vehicle and pat them down briefly for weapons to
ensure the officer’s safety and the safety of others.

United States v. Sakyi, 160 F.3d 164, 169 (4th Cir. 1998). In Sakyi, we recognized

that “[t]he indisputable nexus between drugs and guns presumptively creates a
reasonable suspicion of danger to the officer.” Id.

McCoy argues that there were several facts present that demonstrated he was
not dangerous—he had a valid driver’s license, there was no evidence that the
traffic stop occurred in a high-crime area, the officer left him in the car while
running the background check after smelling the marijuana, he was cooperative,
and the officer handcuffed him while conducting the pat down for the marijuana.
However, construing the evidence in the light most favorable to the government as

3a
the prevailing party below, we conclude that these facts do not overcome the
presumption of danger. We have emphasized that reasonable suspicion exists to
frisk when an “officer reasonably suspect[s] that the person is armed and therefore
dangerous.” United States v. Robinson, 846 F.3d 694, 700 (4th Cir. 2017) (en banc)
(emphasis omitted). The facts identified by McCoy do not negate the core logic
behind Sakyi—that a person carrying controlled substances is likely armed. 160
F.3d at 169. Moreover, the facts cited by McCoy do not necessarily lead to the
conclusion that he was not a threat to the officers’ safety. See United States v.
Shakir, 616 F.3d 315, 321 (3d Cir. 2010) (recognizing handcuffs do not guarantee
suspect is unable to reach for weapon); Sakyi, 160 F.3d at 170 (noting defendant’s
“conduct was not suspicious” when officer conducted frisk).
McCoy also asks us to overrule Sakyi, primarily on the grounds that a majority
of states have legalized some form of marijuana use and that some courts have
rejected Sakyi.* However, “one panel cannot overrule a decision issued by another
panel.” United States v. Williams, 808 F.3d 253, 261 (4th Cir. 2015) (internal
quotation marks omitted). Moreover, we rejected a similar argument in Robinson,
based on the state’s legalization of firearm possession. 846 F.3d at 696 (“The danger
justifying a protective frisk arises from the combination of a forced police encounter
and the presence of a weapon, not from any illegality of the weapon’s possession.”).
Accordingly, we affirm the district court’s order. We dispense with oral
argument because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional process.

AFFIRMED

McCoy also challenges the initial stop of his vehicle, claiming that the officers’ pretextual stop
violated the Fourth Amendment. However, McCoy concedes that this argument is foreclosed by the
Supreme Court’s decision in Whren v. United States, 517 U.S. 806, 813 (1996) (holding that, upon
observing traffic violation, officer may stop vehicle regardless of his subjective motivations, “as long
as the circumstances, viewed objectively, justify that action” (internal quotation marks omitted)). We
are bound to follow Supreme Court precedent. Stop Reckless Econ. Instability Caused by Democrats
v. Fed. Election Comm’n, 814 F.3d 221, 230-31 (4th Cir. 2016).
*

4a
FILED: August 26, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
____________
No. 18-4731
(3:17-cr-00240-MOC-DSC-1)
____________
UNITED STATES OF AMERICA
Plaintiff-Appellee
v.
TONY DESHAWN MCCOY,
Defendant-Appellant
____________
ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Red. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

5a
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
DOCKET NO. 3:17-cr-00240-MOC-DSC
UNITED STATES OF AMERICA,
Vs.
TONY DESHAWN MCCOY,
Defendant.

)
)
)
) ORDER
)
)
)

THIS MATTER is before the Court on defendant’s Motion to Suppress. Having
considered defendant’s motion and conducted an evidentiary hearing, the Court
enters the following findings, conclusions, and Order.
FINDINGS AND CONCLUSIONS
I.

Background

The credible testimony at the hearing revealed the following information.
Officer Caleb Skipper and Officer Brandon Sinnot both testified as to the events
leading up to the stop of defendant, the search of his person, the discovery of the
firearm, and defendant’s arrest.
That testimony revealed that on November 4, 2016, Officers Skipper and Sinnot
of the Charlotte-Mecklenburg Police Department (“CMPD”) Metro Crime Reduction
Unit were riding as a two-man unit in a marked CMPD vehicle. Officers Skipper
and Sinnot were parked near the intersection of W. 28th Street and Bancroft Street
in Charlotte, N.C. At approximately 1:10pm, the Officers observed a silver Buick
traveling with a cracked front windshield, a license plate they believed was invalid
or had faded numbers, and the driver was not wearing a seatbelt. Based on these
observations, the Officers initiated a traffic stop of the silver Buick. Both Officers
then activated their respective body cameras.
Once the silver Buick stopped, Officer Skipper approached the driver’s side of
the vehicle. Officer Skipper observed that the driver (later identified as the
Defendant Tony Deshawn McCoy) had both hands on the steering wheel and the
windows were rolled up. As Officer Skipper approached, the Defendant lifted his
right hand from the steering wheel and motioned for Officer Skipper to open the

6a
driver’s side door. Officer Skipper then opened the driver’s side door to communicate
with the Defendant. Officer Skipper collected the Defendant’s driver’s license and a
purchase receipt for the vehicle. The Defendant advised Officer Skipper that the
Defendant’s mother had recently purchased the vehicle. When Officer Skipper
opened the driver’s side door to communicate with the Defendant, he immediately
smelled an odor of marijuana coming from inside the vehicle.
While Officer Skipper was communicating with the Defendant, Officer
approached the passenger side door of the silver Buick. As Officer
approached the vehicle, he began communicating with a female seated
passenger seat. The passenger side window was partially down and Officer
smelled an odor of marijuana coming from inside the vehicle.

Sinnot
Sinnot
in the
Sinnot

After collecting the Defendant’s information, Officer Skipper walked back to the
CMPD vehicle. While walking back to the CMPD vehicle, Officer Skipper signaled
to Officer Sinnot that he detected an odor of marijuana by tapping on his nose.
Officer Skipper then checked for any outstanding warrants and ran the vehicle
identification number through the Department of Motor Vehicles database. The
search revealed that the Defendant had a valid driver’s license and no outstanding
warrants. A search of the National Crime Information Center (“NCIC”) database
revealed the Defendant’s criminal history, which included two convictions for
Robbery with a Dangerous Weapon, among others.
Officer Skipper then approached the silver Buick a second time to return the
Defendant’s driver’s license and purchase receipt and to address the smell of
marijuana. Officer Skipper asked the Defendant to step out of the vehicle. Once the
Defendant stepped out of the vehicle, the Defendant admitted that he had
marijuana in his possession. Officer Skipper then advised the Defendant that he
had already detected an odor of marijuana.
Officer Skipper then placed the Defendant in handcuffs and conducted a brief
pat down of the Defendant’s person. Officer Skipper retrieved the marijuana from
the Defendant’s front left pants pocket. The marijuana was packaged in six
individually packaged baggies inside one larger clear baggy. As Officer Skipper
continued the pat down, he felt a hard object concealed in the Defendant’s front
waistband. Officer Skipper asked the Defendant what the object was and the
Defendant replied that the object was a “gun.” Officer Skipper then retrieved the
firearm—a Smith & Wesson Revolver, .38 Special. The Defendant was then placed
under arrest.
The Officers then conducted a search of the vehicle and located a digital scale in
the glove compartment. The search also revealed an additional baggy of marijuana
located in the handbag belonging to the female passenger. The Defendant advised

7a
the Officers that the marijuana found in the handbag belonged to him, not the
female passenger.
On August 15, 2017, a grand jury returned a one-count indictment against the
Defendant charging him with possession of a firearm by a convicted felon in
violation of 18 U.S.C. § 922(g)(1). Indictment (#1).
II. The Motion to Suppress
In moving to suppress, defendant contends that Officer Skipper’s stop of his
vehicle was unreasonable and unsupported by a reasonable articulable suspicion.
Further, defendant contends that Officer Skipper failed to harbor any reasonable
articulable suspicion that defendant was either armed or dangerous before he
conducted the frisk.
III. Discussion
A traffic stop constitutes a “seizure” under the Fourth Amendment and is
subject to review for reasonableness. United States v. Williams, 808 F.3d 238, 245
(4th Cir. 2015). To be constitutional, a traffic stop must be reasonable under the
Fourth Amendment, Whren v. United States, 517 U.S. 806, 810 (1996), making
those stops subject to the standard articulated by the Supreme Court in Terry v.
Ohio, 392 U.S. 1 (1968). “Temporary detention of individuals during the stop of an
automobile by the police, even if only for a brief period and for a limited purpose,
constitutes a ‘seizure’” under the Fourth Amendment to the United States
Constitution. Whren, 517 U.S. at 809 To satisfy the reasonableness requirements
for an investigative detention, a traffic stop must be legitimate at its inception, and
the officers’ actions during the stop must, thereafter, be “reasonably related in
scope” to the basis for the stop. Williams, supra. Based on the evidence presented at
the suppression hearing, which included officer body cam footage, the Court
answers both questions in the affirmative.
A. Whether the Stop was Legitimate at Its Inception
In determining whether a stop is reasonable under Terry, this Court first asks
whether the stop was “legitimate at its inception.” United States v. Hill, 852 F.3d
377, 381 (4th Cir. 2017). Here, defendant argued that the initial stop was not
reasonable because the offenses upon which the stop were predicated were mere
infractions of North Carolina law and were a pretext for looking for greater offenses,
such as gun and drug violations. An officer’s initial “decision to stop an automobile
is reasonable where the police have probable cause to believe that a traffic violation
has occurred.” Whren, 517 U.S. at 810. The officer’s subjective motivation in making
the stop is unimportant; it only matters whether the basis for the stop was
objectively reasonable. Whren, 517 U.S. at 813.

8a
The Court has, as promised at the conclusion of the hearing, given close
consideration to defendant’s argument that the stop of his vehicle was pretextual.
While Whren clearly forecloses the subjective analysis suggested by defendant, the
Court believes that consideration of the case law leading up to Whren will add some
clarity. Prior to Whren, there was a split among the federal circuit courts in
considering whether investigatory stops were improperly pretextual: some circuits
applied a subjective test, while others applied an objective one. Before Whren, the
Eleventh Circuit found that
in determining when an investigatory stop is unreasonably pretextual, the
proper inquiry ... is not whether the officer could validly have made the
stop but whether under the same circumstances a reasonable officer would
have made the stop in the absence of the invalid purpose.

United States v. Valdez, 931 F.2d 1448, 1450 (11th Cir. 1991) (citation and

corresponding quotation marks omitted). The Tenth Circuit held that a stop is
“unreasonable not because the officer secretly hope[s] to find evidence of a greater
offense, but because it [i]s clear that an officer would have been uninterested in
pursuing the lesser offense absent that hope.” United States v. Guzman, 864 F.2d
1512, 1517 (10th Cir. 1988) (citation and corresponding quotation marks omitted).
At the hearing, defendant’s argument followed closely the reasoning of the Guzman
court.
While the reasoning of Guzman was appealing as it touched on concepts of
fairness and prevention of arbitrary use of policing authority, that method of
subjective analysis was soundly rejected by the Fourth Circuit, holding as follows:
We adopt the objective test and likewise hold that when an officer
observes a traffic offense or other unlawful conduct, he or she is justified in
stopping the vehicle under the Fourth Amendment. Such a limited
detention does not become “unreasonable merely because the officer has
intuitive suspicions that the occupants of the car are engaged in some sort
of criminal activity.” Cummins, 920 F.2d at 499–501 (noting that the officer
testified he probably would not have stopped the car if the defendant and
his passenger had not continued glancing at him and behaving
suspiciously).
Although we share the concerns, expressed by the Tenth and Eleventh
Circuits [in Guzman and Valdez ], of the arbitrary exercise of police powers,
we conclude that the objective test presents the most principled basis upon
which to analyze the validity of investigative stops. We further conclude
that the test is most in keeping with the repeated admonitions of the
Supreme Court that Fourth Amendment violations turn “on an objective

9a
assessment of the officer’s actions in light of the facts and circumstances
confronting him at the time . . . and not on the officer's actual state of mind
at the time the challenged action was taken.” Maryland v. Macon, 472 U.S.
463, 470 (1985) (quoting Scott v. United States, 436 U.S. 128, 136 (1978));
see United States v. Villamonte–Marquez, 462 U.S. 579 (1983).

United States v. Hassan El, 5 F.3d 726, 730-731 (4th Cir. 1993). The Fourth
Circuit’s and other circuits’ objective approach was soon thereafter adopted as the
appropriate approach by the Supreme Court in Whren, supra.

Here, the evidence presented at the hearing shows that the vehicle stop was
supported by probable cause. The fact that the traffic offenses were infractions or
that the officers were looking for more serious offenses is of no consequence under
Whren. While it turned out that the tag turned out to be valid, that later discovered
fact did nothing to diminish the fact that the officers had probable cause to initiate
the traffic stop as they reasonably believed there was a problem with the tag, that
the windshield was broken, and that defendant was not wearing a seatbelt. The
Court found the officers’ testimony and evidence presented, including body cam
footage, to be highly credible and informative. Thus, the stop was legitimate at its
inception.
B. The Scope of the Officers’ Action After the Stop
The next issue is whether “the officer’s actions during the seizure were
reasonably related in scope to the basis for the traffic stop.” Williams, 808 F.3d at
245 (internal quotation marks omitted). The credible evidence presented at the
hearing showed that when the vehicle was stopped and Officer Skipper made his
initial approach and engaged the driver, he detected the odor of marijuana coming
from the vehicle. He testified that the odor he smelled was not that of burning
marijuana, but of unused marijuana. After going back to the patrol car to run
defendant’s driver’s license and registration information, he discovered defendant
was a felon. Officer Skipper then returned to the car to return the defendant’s
driver’s license and purchase receipt and to address the smell of marijuana. Officer
Skipper asked the Defendant to step out of the vehicle. Once the Defendant stepped
out of the vehicle, the Defendant admitted that he had marijuana in pants pocket,
and Officer Skipper then advised the Defendant that he had already detected an
odor of marijuana. Officer Skipper then placed the Defendant in handcuffs and
conducted a brief pat down of the Defendant’s person. Officer Skipper retrieved the
marijuana from the Defendant’s front left pants pocket. The marijuana was
packaged in six individually packaged baggies inside one larger clear baggy.
Immediately after retrieving the marijuana, Officer Skipper frisked defendant and
found a hard object in defendant’s waist band, which defendant identified as a hand

10a
gun. Officer Skipper then removed the weapon. Defendant has moved to suppress
the firearm discovered on his person pursuant to the frisk, arguing that such
discovery exceeded the permissible scope of the stop.
If an officer smells the odor of marijuana in circumstances where the officer can
localize its source to a person, the officer has probable cause to believe that the
person has committed or is committing the crime of possession of marijuana. United
States v. Humphries, 372 F.3d 653, 659 (4th Cir. 2004). Further, admission to the
possession of an illegal drug can provide a law enforcement officer with probable
cause to arrest and a lawful basis to search the arrestee. United States v. Day, 591
F.3d 679, 696 (4th Cir. 2010). During a traffic stop, officers may also require a
driver to exit a vehicle based on the suspicion justifying the traffic stop itself.
Maryland v. Wilson, 519 U.S. 408, 415 (1997). A brief pat down is permitted “when
the officer perceive[s] an appropriate level of suspicion of criminal activity and
apprehension of danger.” United States v. Sakyi, 160 F.3d 164, 169 (4th Cir. 1998).
When determining whether an officer had reasonable suspicion to conduct a frisk, a
court must consider the totality of the circumstances. United States v. Sprinkle, 106
F.3d 613, 618 (4th Cir. 1997).
An officer may conduct a protective frisk of a car’s driver or passenger if he or
she “harbor[s] reasonable suspicion that the person subjected to the frisk is armed
and dangerous.” Arizona v. Johnson, 555 U.S. 323, 326 (2009). “The officer need not
be absolutely certain that the individual is armed; the issue is whether a reasonably
prudent man in the circumstances would be warranted in the belief that his safety
or that of others was in danger.” Terry, 392 U.S. at 27. “The reasonable suspicion
standard is an objective one, and the officer’s subjective state of mind is not
considered.” United States v. George, 732 F.3d 296, 299 (4th Cir. 2013) (citing
United States v. Powell, 666 F.3d 180, 186 (4th Cir. 2011)). The Fourth Amendment
does not “require . . . police officers [to] take unnecessary risks in the performance of
their duties.” Terry, 392 U.S. at 23. The danger justifying a protective frisk arises
from the combination of a forced police encounter and the possible presence of a
weapon. See Adams v. Williams, 407 U.S. 143, 146 (1972); Michigan v. Long, 463
U.S. 1032, 1052 n.16 (1983).
In finding that the frisk leading to the discovery of the firearm was lawful, the
Court has considered all the circumstances of the encounter and determined that
Officer Skipper had a particularized and objective basis for believing that the
detained suspect might be armed and dangerous. United States v. Arvizu, 534 U.S.
266, 273 (2002). “A host of factors can contribute to a basis for reasonable suspicion,
including the context of the stop, the crime rate in the area, and the nervous or
evasive behavior of the suspect.” George, 732 F.3d at 299. While the both officers

11a
testified that defendant was cooperative, that testimony also revealed that: from his
check of the driver’s license he knew that defendant was a felon; he smelled
marijuana upon the initial encounter; defendant admitted to being in possession of
marijuana when he was returning the license and registration document; and he
had just discovered marijuana in defendant’s pants pocket.
While a mere traffic infraction and knowledge that a person has a criminal
record is not enough to give rise to a reasonable suspicion that a defendant is armed
and dangerous, Powell, 666 F.3d at 189, the frisk of defendant was immediately
preceded by Officer Skipper’s discovery of marijuana in defendant’s pants pocket.
Discovery of a controlled substance supports the frisk for officer safety as the
Fourth Circuit has held that the presence of drugs permits a reasonable inference of
the presence of firearms. United States v. Sullivan, 455 F.3d 248, 260 (4th Cir.
2006) (recognizing the “unfortunate reality that drugs and guns all too often go
hand in hand”) (citation omitted); United States v. Stanfield, 109 F.3d 976, 984 (4th
Cir. 1997) (“As we have often noted, where there are drugs, there are almost always
guns.”); United States v. Perrin, 45 F.3d 869, 873 (4th Cir. 1995) (finding reasonable
an officer’s belief that a person selling drugs may be carrying a weapon for
protection); and United States v. Brown, 398 Fed. Appx. 865, 868 (4th Cir. 2010)
(“This court has recognized that the presence of drugs permits the inference of the
presence of firearms.”). Thus, Officer Skipper’s frisk which lead to the discovery of
the gun, which immediately followed the discovery of marijuana in defendant’s
pants pocket, is supported by objective and particularized facts sufficient to give
rise to a reasonable suspicion that defendant was armed and dangerous.
Finally, the Court concludes that the investigation related to the marijuana and
discovery of the firearm did not impermissibly prolong the encounter on the traffic
infractions. Officers may engage in other investigative techniques unrelated to the
underlying traffic infraction or officer safety while diligently pursuing the purpose
of the traffic stop. Rodriguez v. United States, ___U.S.___, 135 S. Ct. 1609, 1614-15
(2015). So long as the collateral investigation does not prolong the encounter, such
activity is permissible. Id. The credible evidence of record indicates that Officer
Skipper smelled marijuana upon his initial encounter with defendant and it was
defendant who volunteered that he had marijuana in his possession when Officer
Skipper was returning his license and registration documents. Indeed, the body cam
footage fully supports that testimony and has shown clearly that the marijuana
investigation was conducted simultaneously with the investigation of the traffic
infractions. Thus, the discovery of the firearm and actions leading up to that
discovery were reasonably related in scope to the basis for the traffic stop. Williams,
808 F.3d at 245.

12a
ORDER
IT IS, THEREFORE, ORDERED that defendant’s Motion to Suppress (#12) is
DENIED.
Signed: March 2, 2018

/s/ Max O. Cogburn, Jr.

Max O. Cogburn, Jr.
United States District Judge

